IN THE

Supreme Court of the Gnited States

CITY OF CLEVELAND, KAREN LAMENDOLA, ADMINISTRATOR FOR
ESTATE OF FRANK STOIKER, AND J. REID YODER, ADMINISTRATOR FOR
ESTATES OF EUGENE TERPAY, JAMES T. FARMER, JOHN STAIMPEL,

Petitioners,
v.

RICKY JACKSON, KWAME AJAMU, FKA RONNIE BRIDGEMAN,
AND WILEY EDWARD BRIDGEMAN,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

CERTIFICATE OF COMPLIANCE
Pursuant to this Court’s Rule 33.1(h), I hereby certify that the Petition for a Writ
of Certiorari contains 8,979 words, excluding parts of the document that are exempted by
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 25, 2019.

 

600 New Hampshire Ave., N.W.
Washington, D.C. 20037

(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
